OFFICE OF INSPECTOR GENERAL

FOLLOWUP AUDIT OF
USAID/BRAZIL’S
ENVIRONMENT PROGRAM
AUDIT REPORT NO. 1-512-10-006-P
June 4, 2010




SAN SALVADOR, EL SALVADOR
     Office of Inspector General


     June 4, 2010

     MEMORANDUM

     TO:              USAID/Brazil Acting Director, Denny Robertson

     FROM:            Regional Inspector General/San Salvador, Catherine Trujillo /s/

     SUBJECT:         Followup Audit of USAID/Brazil’s Environmental Activities (Audit Report
                      No. 1-512-10-006-P)

     This memorandum transmits our final report on the subject audit. We have carefully
     considered your comments on the draft report in finalizing the audit report and have
     included your response in appendix II.

     The initial draft report contained 10 recommendations for corrective action. After
     reviewing the mission’s written comments, we agreed to remove a recommendation
     related to the relationships the mission has with governmental stakeholder organizations
     and implementing partners (recommendation 2 in the draft). As well, in response to the
     mission’s comments we have revised recommendation 3 in the final report. The final
     report contains nine recommendations.

     On the basis of your written comments, in which you described actions already taken or
     initiated to address our concerns, we consider that final action has been taken on
     recommendations 1, 4, 5, 6, and 7 (formerly 1, 5, 6, 7, and 8), while management
     decisions have been reached for recommendations 8 and 9 (formerly 9 and 10).
     Determination of final action will be made by the Audit Performance and Compliance
     Division upon completion of the planned corrective actions.

     Management decisions for recommendations 2 and 3 (formerly 3 and 4) can be reached
     once USAID/Brazil and we agree on a firm plan of action, with target dates, for
     implementing these recommendations. Please advise my office within 30 days of any
     further actions planned or taken to reach management decisions on these
     recommendations.

     I want to express my sincere appreciation for the cooperation and courtesies extended
     to my staff during this audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives.............................................................................................................. 4

Audit Findings ................................................................................................................. 5

Are USAID/Brazil’s environmental activities achieving their main goals? ......................... 5

          USAID/Brazil Should Improve Oversight of Environmental Activities.................... 6

          USAID/Brazil Should Assess the Effectiveness of Training .................................. 7

Were the actions taken by USAID/Brazil in response to
recommendations in Audit Report No. 1-512-09-005-P effective?.................................... 8

          Effective Actions.................................................................................................... 8

          Not Fully Effective Actions..................................................................................... 9

Evaluation of Management Comments ....................................................................... 16

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 19
SUMMARY OF RESULTS
USAID/Brazil’s environment program focuses exclusively on the Brazilian Amazon
rainforest region. Program activities attempt to generate sustained economic growth by
ensuring that the environment and natural resources are effectively managed. The total
estimated USAID budget for the program is $38 million. As of September 30, 2009,
USAID/Brazil had obligated $28.4 million and expended $10.7 million under the program
(page 4). Through September 2009, USAID/Brazil implemented its environment
program through five cooperative agreements and one interagency agreement with
partner organizations based in the United States and in Brazil (page 3).

As part of its FY 2010 annual plan, RIG/San Salvador carried out a followup audit of
USAID/Brazil’s environmental activities. The audit was designed to answer the following
questions (page 4):

   Are USAID/Brazil’s environmental activities achieving their main goals?

   Were the actions taken by USAID/Brazil in response to recommendations in Audit
    Report No. 1-512-09-005-P effective?

Regarding the first question, USAID/Brazil’s environmental activities are making interim
progress toward achieving USAID/Brazil main goals to ensure that the environment and
the natural resources are effectively managed (page 5). However, despite these
accomplishments, there is a need for the mission to improve oversight of its activities
(page 6). In addition, the mission should develop a better followup mechanism to
measure training effectiveness (page 7).

With respect to the second question, RIG/San Salvador determined that the mission’s
actions in response to 6 of the 13 recommendations were effective (page 8). However,
the mission’s actions in response to the other seven recommendations were either
partially effective or have not corrected the underlying problem (page 9).

The report recommends that USAID/Brazil:

   Establish written procedures that require adequate oversight of its projects (page 7).

   Establish written procedures to measure training effectiveness (page 8).

   Develop and report against an indicator which it considers most significant and best
    reflects the progress and impacts of their interventions (page 11).

   Provide training during the next meeting with all implementers to discuss the
    definition and the expectations of what should be considered for reporting progress
    against the training indicator and the policies, laws, agreements, or regulations
    indicator (page 11).

   Require implementing partners to submit monitoring and evaluation plans as
    required by the cooperative agreements (page 13).



                                                                                         1
   Adapt its monitoring and evaluation tool to track the mission’s receipt and approval of
    key documents such as life-of-project plans, annual work plans, and monitoring and
    evaluation plans (page 13).

   Develop and implement a system to confirm that reported performance results are
    accurate (page 14).

   Conduct an assessment to confirm that the implementing partners have procedures
    and internal controls to properly track and report activities correctly (page 14).

   Develop and implement procedures to collect and input training data quarterly into
    the USAID training network (page 15).

In response to our draft report, USAID/Brazil concurred with seven recommendations
and outlined measures that had been or would be taken in response to the audit
findings. On the basis of the mission’s written comments and the supporting
documentation provided, we consider that final actions have been taken on
recommendations 1, 4, 5, 6, and 7, while management decisions have been reached for
recommendations 8 and 9.

Management decisions for recommendations 2 and 3 can be reached once
USAID/Brazil submits a suitable plan of action, with target dates, for implementing these
recommendations. Determination of final action will be made by Audit Performance and
Compliance Division upon completion of the planned corrective actions.

USAID/Brazil’s comments are included in their entirety in appendix II.




                                                                                         2
BACKGROUND
Brazil holds about one-third of the world’s rainforests, including 60 percent of the Amazon
rainforest. Tropical forests provide important environmental services and play a significant
role in climate change worldwide. Emissions from activities that cause tropical forest
deforestation represent 17 percent of annual greenhouse gases emissions worldwide, while
rainforests continue to sequester almost the same amount of atmospheric carbon each
year. Studies estimate that activities that cause deforestation are the source of 75 percent
of Brazil’s total greenhouse emissions, which makes protecting the rainforest an important
part of the country’s effort to mitigate climate change.

USAID/Brazil’s environmental program supports activities that improve the management of
natural resources and conserve biodiversity. These activities are of particular importance
for Brazil, where deforestation in tropical rainforest areas remains a challenge and, due to
the correspondent emissions of greenhouse gases, contributes to global climate change.
The rate of deforestation is still high in Brazil for a number of reasons—cattle ranching,
soybean production, illegal logging, uncontrolled settlement, land tenure conflicts, and
agribusiness economic incentives.

Through September 2009, USAID/Brazil implemented its environment program mainly
through five cooperative agreements and one interagency agreement, as shown in the
table.

USAID/Brazil Environment Program Implementing Partners

                                                                            USAID Total
                                                              Start Date     Estimated
   Lead Organization*               Initiative Name           End Date         Costs
U.S. Department of                                            April 2007
                              Forest Enterprise                                $4,579,587
Agriculture Forest Service                                    April 2012
                              Strengthening
International Institute of                                    Jan. 2008
                              Organizations in Southern                         8,286,485
Education of Brazil                                           Sept. 2011
                              Amazonas State
                                                              May 2008
The Nature Conservancy        Indigenous Landscape                              3,384,287
                                                              Sept. 2011
                              Environmental
                                                              Sept. 2008
University of Florida         Management of                                     2,703,294
                                                              Sept. 2011
                              Watersheds and Roads
                              Conservation in the             Oct. 2008
World Vision                                                                    4,096,625
                              Indigenous Amazon               Sept. 2011
                              Ethno-Environment
Centro de Trabalho            Protection of Isolated          Oct. 2008
                                                                                4,478,392
Indigenista                   Peoples in the Brazilian        Sept. 2011
                              Amazon
Total                                                                        $27,528,670
*Each of these organizations led a consortium of implementing organizations referred to in
this report as subpartners.




                                                                                          3
On September 30, 2009, the mission awarded two cooperative agreements which
increased the total USAID obligated amount to $28.4 million and the total amount
expended to $10.7 million.

AUDIT OBJECTIVES
As part of its FY 2010 annual plan, RIG/San Salvador carried out a followup audit of
USAID/Brazil’s environmental activities. The audit was designed to answer the following
questions:

   Are USAID/Brazil’s environmental activities achieving their main goals?

   Were the actions taken by USAID/Brazil in response to recommendations in Audit
    Report No. 1-512-09-005-P effective?

The audit’s scope and methodology are described in appendix I.




                                                                                     4
AUDIT FINDINGS
Are USAID/Brazil’s environmental activities achieving their main
goals?
USAID/Brazil’s environmental activities implemented under five cooperative agreements
and one interagency agreement are making interim progress toward achieving
USAID/Brazil’s main goals to ensure that the environment and natural resources are
effectively managed, although implementation delays have limited the program’s overall
impact.

USAID/Brazil’s environmental activities have improved the management of natural
resources and the conservation of biodiversity by:

   Helping indigenous peoples combine their intimate knowledge of the local
    environment with scientific knowledge to improve their livelihoods and management
    of natural resources. For example, the project has provided financial resources that
    have allowed groups to conduct additional expeditions, resulting in more efficient
    monitoring of areas where isolated indigenous peoples live.

   Training private sector and community associations in sustainable forest
    management.          USAID/Brazil’s program has trained indigenous leaders in
    environmental legislation and built their capacity to become involved in the
    management and conservation of protected areas, leading to a reduction of forest
    fires in the region.

   Providing government at all levels with critical information necessary for forest sector
    management and forest law enforcement.

   Making information about the forest environment available to local populations,
    increasing their understanding and their awareness of threats. For example, one
    implementing partner works in close collaboration with members of indigenous
    communities to develop natural resource management plans for their reserves.

   Helping local associations (including indigenous associations) and municipalities
    strengthen their organization and capacity to play an effective role in local and
    regional environmental governance and conservation efforts.

   Protecting indigenous lands and isolated indigenous people through stronger
    surveillance and vigilance.

Despite these accomplishments, USAID/Brazil did not adequately monitor these
activities, resulting in implementation delays. The mission should improve monitoring
and develop better followup mechanisms to measure training effectiveness. These
issues are addressed below, along with recommended actions.




                                                                                          5
USAID/Brazil Should Improve
Oversight of Environmental Activities
    Summary. Work plans or implementation plans serve as management tools that
    allow the mission to visualize the work to be performed and monitor the
    implementation process. These work plans often identify critical tasks regarding
    implementation that are necessary to ensure timely and successful accomplishment of
    the planned activities. As of September 2009, USAID/Brazil’s planned environmental
    activities were behind schedule. In addition, some critical assumptions related to
    implementation had proved to be mistaken. Some activities fell behind work plan
    schedules because of (1) a slow start during the first year of implementation, (2)
    critical counterparts experiencing financial and litigation issues, and (3) the
    suspension of program activities during a redesign phase. During these periods of
    delays, the mission’s assistance objectives teams 1 did not take early action in
    response to problems identified. As a result, the expected progress as of the end of
    FY 2009 had not been fully achieved.

As required by their agreements with USAID/Brazil, implementing partners submitted
annual work plans for FY 2008, 2009, and some for 2010. These work plans are
important planning and management instruments that define performance expectations
and allow the mission to monitor progress. Further, these work plans identify critical
assumptions that can ensure timely and successful accomplishment of the planned
activities.

As of September 2009, each of the projects had experienced implementation delays,
which caused planned activities to fall behind schedule. For example, Centro de
Trabalho Indigenista postponed some activities because of problems it experienced: its
funding was delayed because of the USAID requirement to undergo an evaluation of its
administrative polices and internal controls, and because USAID did not provide timely
approval to purchase necessary supplies and equipment. World Vision had not made
the progress planned for the first year because establishing its internal administrative
processes took longer than expected.

Activities of The Nature Conservancy, International Institute for Education of Brazil, and
the University of Florida were suspended when the Government of Brazil declined to
participate in a regional program. USAID had to modify its program design and have
Brazil-based activities managed under USAID/Brazil’s bilateral program as opposed to a
regional program. This change required the affected partners to write new program
descriptions and develop new budgets, suspending the ongoing activities for almost 1
year.

Lastly, efforts by The Nature Conservancy to strengthen Amazonian indigenous
organizations were not on schedule.      Delays occurred because a key partner
experienced litigation and financial problems and could not fully participate in
implementation.

1
  Assistance objective team is a group of people with complementary skills empowered to
achieve a specific Foreign Assistance result for which they are willing to be held accountable.
The primary responsibility of an assistance objective team is to make decisions in designing and
implementing activities and projects related to accomplishing the result.


                                                                                              6
Monitoring the quality and timeliness of outputs produced by implementing partners is a
major task of agreement officer’s technical representative and assistance objectives
teams, and early action in response to problems is essential in managing for results.
However, as these problems developed, USAID/Brazil did not take timely or effective
action. As a consequence, some planned program results were not met for FY 2009,
putting planned project accomplishments in doubt. To prevent such problems in the
future, we make the following recommendation.

   Recommendation 1.        We recommend that USAID/Brazil establish written
   procedures that require adequate oversight of its projects.

USAID/Brazil Should Assess
the Effectiveness of Training

Summary. USAID guidance (Automated Directives System 253.3.1) requires the missions
to design and implement participant training for results and impact. Training is a critical
component of the environmental program at USAID/Brazil.               However, neither the
implementing partners nor USAID/Brazil has developed a formal system for evaluating the
effectiveness of the training provided to the participants. The impact of training was not
evaluated because the development of a formal training evaluation system was not
considered during the design stage of the training. Without assessing the effectiveness of
training, USAID does not know whether its training programs are having the desired impact
or could be better tailored to the needs of the participants. Assessing the impact of training
may yield greater returns on training investments and provide management better
information to determine future training needs.

Automated Directives System (ADS) 253.3.1 requires missions to design and implement
participant training for results and impact. Specifically, missions must plan, track, manage
for results, and report on their participant training activities as part of their broader
performance measurement, evaluation, and reporting requirements. ADS 203.3.2 also
states that missions are responsible for measuring progress toward the desired results
identified in the planning stage to achieve foreign assistance objectives.

In FY 2009, USAID/Brazil reported that 1,631 people received training in natural
resources management or biodiversity. However, the implementing partners have not
developed systems for evaluating the effectiveness of the training they provided to the
participants. Implementing partners acknowledged that they did not have formal
evaluation systems for the training conducted. Although some partners mentioned they
collected some participants’ feedback, this information was never used to improve the
course. The mission agreed that no formal system for evaluating training is in place.

USAID/Brazil and its implementing partners have not formally assessed the effectiveness of
the training because the need for evaluation was not considered during the design of the
training.

Without assessing the effectiveness of training, USAID/Brazil and its partners do not
know whether their training programs are having the desired impact or could be better
tailored to the needs of the participants. Training programs may fail to deliver the
expected organizational benefits; having a well-structured measuring system in place


                                                                                            7
can help the mission determine where the problem lies. Assessing the effectiveness of
training may yield greater returns on training investments and provide management better
information to determine future training needs.

To address this concern, we make the following recommendation.

      Recommendation 2.      We recommend that USAID/Brazil establish written
      procedures to measure training effectiveness.

Were the actions taken by USAID/Brazil in response to
recommendations in Audit Report No. 1-512-09-005- P effective?
RIG/San Salvador determined that the mission’s actions in response to 6 of the 13
previous recommendations were effective. The mission’s actions in response to the
other seven recommendations were either partially effective or have not corrected the
underlying problem.

Effective Actions
The six previous recommendations with acceptable action are listed below.

Previous Recommendation 3 – USAID/Brazil remind its partners of the requirement to
submit all subawards for cognizant technical officer 2 approval.

In response to recommendation 3, the mission sent an email notification to its partners
requesting that a copy of signed subawards be forwarded to USAID/Brazil. Once
received, these subawards are regarded as part of the agreement officer’s technical
representative’s (AOTR’s) monitoring of program activities. As a result of this action, we
consider that USAID/Brazil has effectively implemented this recommendation.

Previous Recommendation 4 – USAID/Brazil require an audit of Instituto Florestal
Tropical’s reconstructed accounting records for fiscal years 2005 and 2006 as well as its
accounting records for fiscal year 2007 related to USAID funds.

In response to recommendation 4, USAID/Brazil ensured that the accounting records for
Instituto Florestal Tropical were audited. The audit report covering the period October 1,
2003, to September 30, 2006, was issued on August 6, 2009. As a result of these
actions, we consider that USAID/Brazil has effectively implemented this
recommendation.

Previous Recommendation 6 – USAID/Brazil establish procedures to ensure that, at a
minimum, all travel vouchers are accompanied by a site visit report, and a site visit
checklist that includes verification of reported results is used.

In response to recommendation 6, on November 19, 2008, the Mission Director issued a
memo to all USAID/Brazil program staff establishing that travel vouchers related to site
visits would be approved only if submitted with the appropriate trip report. Furthermore,
the environment team devised a checklist to document routine monitoring actions.

2
    This position title changed to contracting officer’s technical representative in January 2009.


                                                                                                     8
Finally, the mission established a hardcopy documentation trail and an electronic form to
strengthen the AOTR’s abilities to discharge the duties and responsibilities designated
by the agreement officer. As a result of these actions, we consider that USAID/Brazil
has effectively implemented this recommendation.

Previous Recommendation 8 – USAID/Brazil develop an appropriate performance
indicator to measure the economic benefits of the USAID/Brazil environment program, or
reinstate the previously used indicator, “Increase in the volume of revenues from the
sale of sustainable goods and environmental services benefiting poor, rural
communities.”

The mission did not agree with recommendation 8, noting that USAID/Brazil’s
environment program focuses on protection of indigenous lands and expansion of
conservation opportunities on the agricultural frontier. The mission stated that the
success of these activities is not measured by increased forest product revenues. To
validate these claims, the audit conducted an extensive review of the work plans and
awards for the six different agreements included in the mission’s environment program.
The audit concluded that there is no direct link between the planned objectives and
activities to improve the economic status of the beneficiaries.             Therefore,
recommendation 8 is not feasible in the context of the current awards, which will run
through 2011, and the audit is not making any official recommendation to have the
partners measure economic benefit. However, in the future USAID/Brazil may wish to
design specific components within the awards to focus on the economic impact.

Previous Recommendation 9 – The agreement officer review the conditions under
which the active cooperative agreements managed by the USAID/Brazil environment
program office were awarded and determine whether the awards should be recompeted
under a Request for Application or other mechanism.

Previous Recommendation 10 – The agreement officer and USAID/Brazil establish
procedures to ensure that future award processes are not compromised.

In response to these two recommendations, the mission’s agreement officer reviewed
the award process and made a determination that competitions for the USAID/Brazil
awards were conducted in accordance USAID internal guidance, policy directives, and
procedures addressing the award and administration of USAID grants and cooperative
agreements. The audit further examined the negotiation memorandums and the
technical evaluation memorandums for current agreements (awarded after the previous
audit) to assess compliance. The review of these key negotiation documents showed
that USAID/Brazil followed the required policy and procedures for soliciting, reviewing,
and awarding the agreements. Therefore, the mission has completed effective actions
in response to these two recommendations.

Not Fully Effective Actions
The seven recommendations for which actions were not fully effective appear below.

Previous Recommendation 7 – USAID/Brazil revise its current performance indicators
so that they (1) are precisely defined and (2) better reflect the progress of its partners’
activities.



                                                                                         9
In response to recommendation 7, the mission contracted with a consultant in FY 2008
and FY 2009 to perform data quality assessments. In addition, the mission hired a
consultant to develop a monitoring and evaluation course, which was presented to the
implementing partners. Lastly, the mission developed a template to instruct the partners
to objectively evaluate and report the number of hectares under improved natural
resource management as a result of U.S. Government assistance.

These actions have heightened the awareness among partners of the importance of
monitoring and reporting. However, the audit concludes that the underlying problems
have not been resolved. These issues are discussed in further detail below.

   Number of hectares under improved natural resource management – This
    indicator measures the scale of impact of natural resource management
    interventions.

    Three of USAID/Brazil’s implementing partners reported progress under this
    indicator. The mission developed a scoring system to measure the quality of the
    improvement and expanded the definition to identify activities that (1) lead to the
    protection of a clearly discriminated area and (2) have tangible influence on the
    promotion of enhanced management of natural resources.

    Despite the mission’s attempts to make the process more objective, the partners’
    interpretation of the guidance has not been consistent. For example, one partner
    reported 68,000 hectares of land under improved management although the activity
    completed was simply the development of maps indicating the areas most vulnerable
    to deforestation and biodiversity loss. Another partner reported 250,000 hectares
    under improved management; however, partner officials explained that area of land
    represented the total area where it conducted expeditions but no further analysis was
    performed to determine the area of land impacted by interventions taken. Lastly, a
    partner reported that 60,000 hectares had been improved, although there was no
    direct evidence of any improvement; the partner had simply provided courses and
    workshops that may or may not have led to improvements.

    The audit of reported results determined that, of the 791,352 hectares that the
    mission reported as being under improved natural resource management, 378,000
    should not have been included because the activities did not meet the indicator
    definition.

   Number of people receiving U.S. Government-supported training in natural
    resources management or biodiversity conservation – This indicator provides
    information about the reach and scale of training and capacity-building efforts.

    All six of USAID/Brazil’s implementing partners reported progress on this indicator.
    Since the last audit, the mission required the prime partners to use the TraiNet 3
    template for collecting training data. This action has increased the partners’
    awareness of the need to report training results. However, the audit revealed that

3
 The Training Results and Information Network (TraiNet) is the Agency-wide database training
management system for reporting on all USAID training activities.



                                                                                         10
    the partners are applying inconsistent practices when reporting their results.

    For example, a partner reported a total of 2,227 people trained in natural resources
    management or biodiversity conservation. The partner should have included only
    the individuals participating in learning activities directly related to the indicator.
    However, the partner included participants from workshops on subjects such as
    administrative and financial management instruments, project preparation,
    fundraising, and other unrelated subjects.

   Number of policies, laws, agreements, or regulations promoting sustainable
    natural resource management and conservation that are implemented as a
    result of U.S. Government assistance – This indicator provides a snapshot of
    strengthened environmental governance that underpins sound natural resources
    management and ensures its sustainability.

    Four of USAID/Brazil’s implementing partners reported results on this indicator. The
    mission expanded the indicator to include not only policies, laws, agreements, and
    regulations, but also tangible measures that will lead to the creation of policies, laws,
    agreements, and regulations, by enabling a favorable environment.

    Because the definition allows partners to report on potential improvements, the
    partners are reporting results that have tenuous links to conservation or cannot be
    attributed to partners’ efforts alone. For example, one partner reported the
    preliminary development of legal documents that could not be linked to measures
    that will lead to conservation. Additionally, some contractors worked in committees
    and contributed to the formulation of policies and laws, but the output could not be
    predominantly attributed to the action of partners supported by USAID.

    When reporting its results for this indicator for FY 2009, the mission accepted only 2
    out of the 10 measures reported by the 4 implementing partners.

    USAID developed indicators so that the U.S. Government could accurately capture
    the most relevant activities pertaining to its development programs in economic
    growth. To improve USAID/Brazil’s measurement of its activities against these
    indicators, we make the following recommendations.

    Recommendation 3. We recommend that USAID/Brazil develop and report
    against an indicator which it considers most significant and best reflects the
    progress and impacts of their interventions.

    Recommendation 4. We recommend that USAID/Brazil provide training during
    the next meeting with all implementers to discuss the definition and the
    expectations of what should be considered for reporting progress against the
    training indicator and the policies, laws, agreements, or regulations indicator.

Previous Recommendation 1 – USAID/Brazil obtain evidence that the International
Institute of Education of Brazil (IEB), the Institute of Environmental Research in the
Amazon (IPAM), and World Wildlife Fund Brazil (WWF-Brazil) have corrected the
monitoring and accountability issues discussed in this finding.




                                                                                          11
Previous Recommendation 2 – USAID/Brazil establish internal controls that will
prevent monitoring and accountability issues.

Previous Recommendation 5 – USAID/Brazil send cognizant technical officers 4 (CTO)
to attend required training and familiarize them with the roles and responsibilities
outlined in the Automated Directives System, CTO designation letter, and award
agreements.

In response to recommendation 1, USAID/Brazil has obtained evidence that some of the
monitoring and accountability issues discussed in the previous audit report were
corrected. Specifically, Instituto Florestal Tropical’s accounting records for the period
October 1, 2003, to September 30, 2006, were reconstructed and subjected to an audit;
the lead partner created a Web-based system capable of handling the financial
administration of its subpartners; subawards for current subpartners have received
USAID approval; and reported results for FY 2009 were verified by an independent
consultant.

Despite these positive actions, several of the monitoring issues identified in the previous
audit report are still present among the current set of subpartners.

     Performance reporting by subpartners is still not well documented. At least one
      subpartner could provide no supporting documentation for the progress reported
      against its indicators.

     The lead organization for one consortium and the subpartner carrying out monitoring
      and evaluation for a second consortium stated that they performed no verification of
      reported results. Instead, these organizations relied solely on the information
      reported to them by their subpartners.

     Although required by the current set of cooperative agreements, partners have not
      submitted, and USAID/Brazil has not approved, monitoring and evaluation plans for
      the lead implementing organizations.

In response to recommendations 2 and 5, USAID/Brazil implemented corrective actions
that have improved the monitoring process. For example, the mission required
individuals to complete the AOTR certification program, and the mission increased
staffing to divide the technical oversight responsibilities between two individuals. Also,
the mission has developed monitoring tools to facilitate keeping records of monitoring
activities such as AOTR’s participation at meetings with implementing partners.
Program files that we reviewed contained more documentation, both hardcopy and in
electronic format, to demonstrate the AOTR’s monitoring efforts.

However, the mission did not formalize the process for approving key project
documents, such as work plans and monitoring and evaluation plans. Within the mission
and among implementing partners, there is an assumption that when work plans are
submitted, approval is automatically conferred unless expressly denied. In some cases,
the mission did not require formal submission of monitoring and evaluation plans and
informally approved them during discussions with the partner.


4
    This position title changed to contracting officer’s technical representative in January 2009.


                                                                                                     12
As a result, USAID management may rely on reported results that are not supported
with adequate documentation and may reach incorrect conclusions on the
performance of the program. Furthermore, the mission does not have an effective
system to demonstrate approval of lead implementer’s work plans and monitoring
systems. Without the formal review and approval of these key documents, the
mission places itself at risk if an implementing partner makes a unilateral decision to
take on activities that are outside the objectives of the agreements. Accordingly, we
make the following recommendations.

   Recommendation 5. We recommend that USAID/Brazil’s Agreement Officer’s
   Technical Representative require each implementing partner to submit a
   monitoring and evaluation plan if one was required as part of the cooperative
   agreement.

   Recommendation 6. We recommend that USAID/Brazil’s Agreement Officer’s
   Technical Representative adapt its monitoring and evaluation tool to track the
   receipt and approval of key documents such as life-of-project plans, annual work
   plans, and monitoring and evaluation plans.

Previous Recommendation 11 – USAID/Brazil establish procedures to report results in
its annual operating reports that are accurate, complete, supported with adequate
documentation, and clearly linked to USAID funding.

In response to recommendation 11, USAID/Brazil reiterated the existing procedures for
obtaining data that support its annual operating reports. Operating reports are
supported by information that is: (1) collected through annual and semiannual reports,
(2) provided by independent evaluations, (3) based on performance monitoring plans
(PMPs), (4) analyzed during portfolio review exercises, and (5) improved through data
quality assessments. However, the audit identified numerous cases where the
performance report for FY 2009 contained information that was unsupported or
inaccurate. These problems stemmed from a lack of verification of subpartners’ reported
results, inconsistent interpretation of indicators by the implementing partners, and
inconsistent practices for data collection. Therefore, this audit concludes that the
mission’s actions in response to the recommendation were not effective.

For instance, one implementing partner noted that hectares were reported based on a
process that might lead to the identification of a new indigenous reserve of
approximately 220,000 hectares. Another partner reported 369,800 hectares; however,
supporting documentation included a total area of only 187,700 hectares—of which
7,500 were certified in FY 2006.

Reporting on actual results is also inaccurate for the indicator reflecting the number of
people receiving training in natural resources management or biodiversity conservation.
The implementing partners reported a cumulative training of 4,477 people during
FY 2009. After the review of the annual reports, USAID/Brazil reduced the number of
people trained to 1,631 because implementing partners could not provide documentation
of the total number of people trained, and there was not sufficient documentation to link
results to USAID assistance.

The audit team also noticed inconsistencies in the ways implementing partners kept
training records and interpreted what should be reported as training. For example, 1


                                                                                          13
lead implementing partner reported 83 participants but provided evidence of attendance
for only 16 participants. USAID/Brazil reported that in FY 2009 one implementing
partner trained 12 participants; however, the implementing partner reported 175. One
implementing partner official informed us that he counted the entire indigenous
community that was present during the training, even women and children who did not
benefit directly from the training. One implementing partner reported only long-term
training, and another reported all meetings as training.

These inconsistencies occurred because of lack of verification of subpartners’ reported
results, inconsistent interpretation of indicators by the implementing partners, and
inconsistent practices for data collection. Without complete and accurate information
about performance results, USAID cannot make decisions about the success of USAID’s
programs and the level of resources needed to implement the programs. Accordingly,
we make the following recommendations.

   Recommendation 7. We recommend that USAID/Brazil develop and implement
   a system to confirm that reported performance results are accurate.

   Recommendation 8. We recommend that USAID/Brazil conduct an assessment
   to confirm that the implementing partners have procedures and internal controls
   to properly track and report the activities correctly.

Previous Recommendations 12 – USAID/Brazil obtain the necessary training data on
its environmental activities from its partners from Fiscal Year 2004 to present and input
this data into the USAID training network.

Previous Recommendation 13 – USAID/Brazil institute procedures to collect and input
training data into the USAID training network quarterly.

In response to recommendation 12, the mission stated that the environment team
collected data from current partners and input the data into the TraiNet database.
However, USAID/Brazil only included the data for FY 2008 and FY 2009. Additionally,
reports for those years are incomplete because they do not include all of the
implementing partners and do not include the total number of people trained. Therefore,
this audit concludes that the mission’s actions in response to the recommendation have
been only partially implemented.

Regarding recommendation 13, the mission has established procedures and a specific
form for collecting training data on a monthly basis. But although partners have received
training and written guidance on these procedures, the number of participants reported
by TraiNet is still inaccurate. For example, for FY 2008 and 2009, USAID/Brazil reported
the number of people trained as 1,191 and 1,631 respectively. However, for FY 2008
and 2009, implementing partners reported 659 and 4,477 participants, respectively.
Moreover, the implementing partners reported in TraiNet total training for FY 2008 and
2009 of 706 and 2,646, respectively. Therefore, this audit concludes that the mission’s
actions in response to the recommendation were not effective.

The mission has not implemented uniform procedures to collect data so the
implementing partners can have a consistent understanding of what is considered
training and what is required to be reported in TraiNet. As a result, USAID cannot rely
on participant training data to make informed management decisions, answer


                                                                                      14
congressional inquiries, report on USAID activities, or develop policy and procedural
guidance. To address this problem, we make the following recommendation.

   Recommendation 9. We recommend that USAID/Brazil develop and implement
   procedures to collect and input training data quarterly into the USAID training
   network.




                                                                                     15
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of USAID/Brazil's response and our review of the supporting
documentation, we consider that final action has been taken on recommendations 1, 4,
5, 6, and 7 (formerly 1, 5, 6, 7, and 8); the mission also provided appropriate supporting
documentation. We therefore conclude that final actions have been completed for these
recommendations.

The mission’s comments also contained specific plans and timeframes for completing
actions in response to recommendations 8 and 9 (formerly 9 and 10); we therefore
conclude that management decisions have been reached for these recommendations.
Determinations of final action will be made by the Audit Performance and Compliance
Division upon completion of the planned corrective actions.

Mission management disagreed with recommendation 2 (formerly 3), which required a
systematic evaluation of the mission’s training program. The mission stated that tracking
training participants would be very difficult and expensive given the remote areas in which
participants reside. However, because training is a major part of the assistance provided
through USAID/Brazil’s environment activities, we strongly believe that the mission should
develop some means to assess the effectiveness of its training program. Many USAID
missions use participant questionnaires, pretests, posttests, or similar instruments to assess
the effectiveness of their training programs, along with indirect observations. Therefore, to
address the mission’s concerns, we adjusted recommendation 2 to clarify that detailed
tracking and followup with individual participants are not required. A management decision
can be achieved for recommendation 2 when USAID/Brazil submits a suitable plan of
action, with target dates, for implementing the recommendation.

Mission management also disagreed with recommendation 3 (formerly 4), which
requires the development of a more objective and consistent method for determining the
number of hectares protected through USAID’s environmental program. The mission
stated that its partners measure and collect other types of data such as the numbers of
hectares logged or deforested in the Brazilian Amazon, contributing to documented
improvement in the transparency of environmental governance in the region. We agree
that this type of data provides a more objective and precise description of results and
program impact than the mission’s reported number of hectares under improved natural
resource management. Therefore, to better capture the environmental program
outcomes we are revising the original recommendation and recommending that
USAID/Brazil develop and report against an indicator which it considers most significant
and best reflects the progress and impacts of their interventions. A management
decision can be achieved for recommendation 3 when USAID/Brazil submits a suitable
plan of action, with target dates, for implementing the revised recommendation.




                                                                                           16
                                                                                  APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
determine (1) whether USAID/Brazil’s Environmental activities have achieved their main
goals, and (2) whether the actions taken by USAID/Brazil in response to the
recommendations in Audit Report No. 1-512-09-005-P have been effective.

In planning and performing the audit, we assessed the mission’s controls related to its
environmental program. The management controls identified included the mission’s
performance management plan, and data quality assessments, the agreement officer’s
technical representative’s site visit reports, program progress reports, and day-to-day
interaction between mission staff and program implementers.

The audit covered the environment program’s activities under the mission’s eighth
strategic objective, “Natural Ecosystems Sustained.” The audit was conducted in Brazil,
in the cities of Brasilia, Rio Branco, Belem, Labria, and Porto Velho, from January 12 to
February 2, 2010. The audit focused on environment program activities performed
under five partners and one interagency agreement during FY 2008 and 2009. As of
September 30, 2009, USAID/Brazil’s environment program had total cumulative
obligations of $28.4 million and total expenditures of $10.7 million. The audit scope
included the total expenditures of USAID/Brazil’s environmental activities as of
September 30, 2009.

Methodology
To answer the audit objectives, we met with personnel from USAID/Brazil, the six lead
organizations, and subpartners. We reviewed relevant documentation produced by
USAID/Brazil’s environment team, such as the program’s PMP, the operational plan,
award documents, and mission-maintained results-tracking reports. We also reviewed
partner-prepared documentation such as annual work plans and annual progress
reports.

To assess whether results were achieved, we used the performance indicators included
in the FY 2009 PMP and cooperative agreements. We tested a judgmental sample of
outputs under each major task (based on program maturity, accessibility, and total
dollars committed in grants) and verified reported progress related to these outputs
during site visits and interviews with the contractor staff, local officials, and beneficiaries.
We validated the reported results for FY 2008 and 2009 by tracing mission-reported
results back to the records maintained at the offices of the implementing and
subpartners. Using the collective results, we determined the progress of each major
task toward the achievement of the main goals stated in the contract documents.



                                                                                             17
In assessing the accuracy of reported results, we established a materiality threshold of
95 percent. If the reported results could be verified and if the difference between
reported and documented results was less than 5 percent, the reported results were
judged to be accurate.

To answer the second objective described in the scope section, we made a
determination as to the effectiveness of the mission’s actions to address each of the 13
recommendations in the above-referenced audit report. To make the determinations, we
analyzed the mission’s written responses on how they addressed each recommendation
in the prior audit report, interviewed mission and implementing partner staff, reviewed
documentation showing that effective implementation and action had been taken, and
verified whether any new procedures or policies were applied as a result of the
recommendations.

Also, we determined what monitoring was done by the agreement officer’s technical
representative and by USAID/Brazil as a whole by reviewing site visit reports and data
quality assessments and interviewing officials of USAID/Brazil and the implementing
partners. We also determined the degree of monitoring conducted by USAID partners
over their subpartners by reviewing available documentation provided by USAID
partners, such as operational plans, monitoring and evaluation plans, documented
achievement of results, and cooperative agreements and their modifications. To
determine the impact of USAID/Brazil’s environment program, we interviewed officials
from USAID, implementing partners, subpartners, beneficiaries, and the Government of
Brazil.




                                                                                     18
                                                                           APPENDIX II




MANAGEMENT COMMENTS
DATE:         May 14, 2010

TO:           Catherine M. Trujillo, Regional Inspector General/San Salvador

FROM:         Eric Stoner, Acting USAID/Brazil Director

SUBJECT:      Follow-up Audit of USAID/Brazil’s Environmental Activities (Audit Report
              Nº 1-512-10-00X-P)

Per your memorandum dated April 16, 2010, this memorandum provides USAID/Brazil’s
response to your draft audit report.

On initial review, it seems the recommendations fall into two categories: 1) monitoring
and evaluation (M&E); and 2) communication. The Mission believes the root of both the
M&E and the communication concerns stems from a lack of trained personnel during the
majority of the periods covered by the current and previous audits – there were only two
local hires responsible for monitoring approximately $15 million worth of programs
covering a land mass larger than the continental United States. With the addition of the
Environment Program Specialist and the DLI Environment Officer, the Mission now has
a sufficient number of personnel to adequately address both concerns. However,
participation in Agency-required training of the new personnel has become problematic.

While the current two local hire supervisors are responsible for training the new
personnel and providing technical supervision, completion of the Programming Foreign
Assistance, Contracting/Assistance Officer’s Technical Representative (COTR/AOTR),
Project Design and Management, and M&E Courses are necessary for the new
personnel to be fully certified project managers and perform their oversight functions.
With USAID/Washington’s new policy of prohibiting field personnel from participating in
training in Washington, the training schedule of the Program Specialist has been
significantly disrupted. In addition, the DLI Environment Officer was scheduled to attend
the PFA Course during the week prior to her arrival at Post, but was removed from the
course due to a policy change that prohibits DLIs from attending the course until they
have reported to Post. These two USAID/Washington policy shifts will hinder the
Environment Team’s ability to perform its oversight functions. In addition, none of the
team members have attended the M&E Course. Any assistance the Regional Inspector
General’s office could provide in expediting the training of both the Program Specialist
and the DLI Environment Officer and in obtaining slots for each of the four team
members in the M&E Course would be greatly appreciated.

Unfortunately, the current workforce structure is in flux. The DLI Environment Officer
position is for training purposes and is not permanent. In order to adequately perform
current operational requirements, be prepared for a possible expansion due to the
anticipated receipt of Global Climate Change Initiative funding, and prepare for the
departure of the senior Environment Officer (likely within four years), the Mission will
modify workforce requirements to include an FS-1 Environment Office Director and an
FS-3 Environment Team Leader. The presence of two experienced/trained Direct Hire



                                                                                      19
personnel is essential to maintain adequate program monitoring and evaluation and to
ensure that all communication is accurate, effective, and captures the true context of the
Brazilian operating environment.

Finally, with the exception of the interagency agreement, all Mission environment
programs are managed through cooperative agreements – thus subject to substantial
involvement limitations. Their purpose is to foster alliances between USAID, the private
sector, nongovernmental organizations, and the Brazilian federal, state and local
governments. As evidenced by the recent naming by Vale (a large Brazilian mining
conglomerate) of grants to five current USAID Environment Program partners and one to
a former partner (out of seven total grants) to expand environmental protection in the
Amazon – the USAID Environment Program is widely recognized for its success in
strengthening Brazilian institutions.

Having stated all this, below are the responses to each recommendation included in the
subject audit report (draft) as follows:

Recommendation 1: We recommend that USAID/Brazil establish written procedures
that require adequate oversight of its projects.

Comments:
The Mission agrees with this recommendation. The Mission has developed a field visit and
project check list template (see attachment) to ensure critical program areas are reviewed
during each project visit. We believe this action to be sufficient to merit closure of this
recommendation by M/CFO/APC.

Recommendation 2: We recommend that USAID/Brazil develop and implement a
strategy to strengthen and institutionalize long-term relationships between the
mission, governmental stakeholders organizations and implementing partners.

Comments:
The Mission disagrees with this recommendation.              USAID/Brazil believes this
recommendation is too vague to be effective. Strengthening and institutionalizing long-term
relationships between the mission, government stakeholders, organizations and
implementing partners has been a pillar of the Environment Program since its inception and
is incorporated into all agreements and planning documents. For example, the 2012
Mission Strategic Resource Plan includes a provision for a new memorandum of
agreement on protected area management between the U.S. and the Government of Brazil
(GOB). However, the Mission will continue to program annual meetings to discuss aspects
of the whole program and reinforce the relationships between the mission, governmental
stakeholders’ organizations and implementing partners. This is an effective way that will
allow all actors of the program know where they stand and their role in the program itself
creating synergies and avoiding duplication of efforts. We believe this recommendation
should be eliminated from the report.

Recommendation 3: We recommend that USAID/Brazil establish written procedures
for systematically following up with training participants to assess the impact and
effectiveness of training.




                                                                                        20
Comments:
The Mission disagrees with this recommendation. This is a systemic, Agency-wide
problem, exacerbated in Brazil by the geographic size of the country and scope of
environment programming. The cost of tracking training participants after the end of
training is prohibitive – and in most cases impossible - due to the remote areas where
participants reside. Resources for participant tracking have never been included in Agency
funding. That said, the Environment Program has ample anecdotal evidence of the
success of its training program participants. For example, the Brazilian Space Research
Institute (as part of the interagency program not reviewed by the auditors) recently
monitored forest fires in an indigenous region to assess the impact of a USAID firefighter
training program. When compared with baseline data, one year after training, forest fires in
the region had been reduced by 80%. Based on this, we strongly believe that this
recommendation should be eliminated from the report.

Recommendation 4: We recommend that USAID/Brazil develop a more objective
systematic approach to measuring the number of hectares and train the
implementing partners who can directly support this indicator so that all are
applying the approach consistently.

Comments:
The Mission disagrees with this recommendation. As stated by the auditors during the RIG
outbriefing, this is a systemic, Agency-wide problem. In many cases, the precise definition
of improved management of protected areas cannot be agreed upon even by Agency
experts. In addition, area measurement is a result, not an indicator. USAID partners
perform precise, timely, and systematic data assessment on numbers of hectares logged or
deforested in the Brazilian Amazon, contributing to documented improvement in the
transparency of environmental governance in the region. Based on this, we strongly
believe that this recommendation should be eliminated from the report.

Recommendation 5: We recommend that USAID/Brazil provide training during the
next consortium wide meeting to discuss the definition and the expectations of what
should be considered for reporting progress against the training and policy, laws,
agreements and regulations indicator.

Comments:
The Mission agrees with this recommendation. In 2009, USAID/Brazil hired a consultant
who produced two reports that addressed these issues - “The FY 2009 Monitoring and
Evaluation Report” and “The Performance Data Verification and Quality Report.” An
excerpt of the first report states that, “submissions by the partners, at least those
accepted by USAID for its own report, were well documented. Several other PLARs
have been reported which might have qualified as well, but were not included so as to
avoid reporting “overachievements” (over target).” These issues were presented during
the Mid-Term Partners’ Meeting held April 29-30, 2010, and both reports were distributed
to all partners. The conclusions provided in the reports were discussed at length. A
meeting report is currently being drafted and when complete (by June 30, 2010) will be
provided upon request. The two reports described above will also be provided upon
request. We believe the action taken provides a solid base to close this recommendation
with M/CFO/APC.




                                                                                         21
Recommendation 6: We recommend that USAID/Brazil’s Agreement Officer’s
Technical Representative require each implementing partner to submit their
monitoring and evaluation plans if one was required as part of the cooperative
agreement.

Comments:
The Mission agrees with this recommendation. As of October 1, 2009, all cooperative
agreements have provisions requiring monitoring and evaluation plans. M&E plans have
been received from all implementers and have been reviewed and approved by the
Mission. Additionally, USAID/Brazil, based on the findings of the above-mentioned “Mid-
Term Partners’ Meeting,” is revising and improving the PMP format. We believe the
action taken provides a solid base to close this recommendation with M/CFO/APC.

Recommendation 7: We recommend that USAID/Brazil’s Agreement Officer’s
Technical Representative adapt its monitoring and evaluation tool to track the
receipt and approval of key documents such as life-of-project plans, annual work
plans, and monitoring and evaluation plans.

Comments:
The Mission agrees with this recommendation. The Environment Program has developed
and implemented a “Technical and Financial Control” tracking table (see attachment),
which includes all requirements stated in the cooperative agreement template. AOTR’s are
responsible to make sure that information required under each agreement such as LOP
plans, annual work plans, and M&E plans are submitted on time for its review and approval.
We believe the action taken provides a solid base to close this recommendation with
M/CFO/APC.

Recommendation 8: We recommend that USAID/Brazil develop and implement a
system to confirm that reported performance results are accurate.

Comments:
The Mission agrees with this recommendation. USAID/Brazil Environment Team has
implemented the new field visit and project check list (see attachment) which includes
provisions to verify the accuracy of reported performance results. This task is to be
performed by the AOTR to conform that the requirements established under the agreement
have actually occurred. We believe the action taken provides a solid base to close this
recommendation with M/CFO/APC.

Recommendation 9: We recommend that USAID/Brazil conduct an assessment to
confirm that the consortium members have procedures and internal controls to
properly link the activities to the funding and track and report them correctly.

Comments:
The Mission agrees with this recommendation. USAID/Brazil Environment Team has
implemented a new field visit and project check list (see attachment) which includes
provisions to verify internal controls and ensure they properly link activities to funding and
track and report them correctly. This checklist will be incorporated into each future project
visit and used to assess consortium member internal controls. The Mission will provide a
report on the results of this assessment by September 30, 2010, to substantiate the closure
of this recommendation with M/CFO/APC.



                                                                                           22
Recommendation 10: We recommend that USAID/Brazil develop and implement
procedures to collect and input training data quarterly into the USAID training
network.

Comments:
The Mission agrees with this recommendation. As of October 1, 2009, the Mission requires
all partners to input training data into the USAID training network on a quarterly basis. This
information is being tracked on the tracking table (see attachment). A report describing
follow-up procedures and verifying the actions taken by the partners will be provided by
June 30, 2010. This will be the action to support closure of this recommendation with
M/CFO/APC.




                                                                                           23
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave., NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
